No.

IN THE SUPREME COURT OF THE UNITED STATES

JAMES A. GIDEON,
PETITIONER,
VS.
STATE OF OHIO,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF OHIO

DENNIS C. BELLI
536 South High St. Fl. 2
Columbus, Ohio 43215-5785
Phone:(614) 300-2911
Fax: (888) 901-8040
Email:
bellilawoffice@yahoo.com
ATTORNEY FOR PETITIONER

QUESTIONS PRESENTED FOR REVIEW
Whether a professional license holder’s objectively reasonable, subjective belief that
assertion of the Fifth Amendment privilege against self-incrimination during a disciplinary
investigation will result in revocation or suspension of his license is sufficient to trigger
application of the exclusionary rule announced in Garrity v. New Jersey, 385 U.S. 493 (1967)?
Whether a professional license holder’s subjective belief that assertion of the Fifth
Amendment privilege against self-incrimination will result in revocation or suspension of his
license is objectively reasonable where a state statute expressly authorizes such a penalty
for refusing to cooperate and truthfully answer questions during a disciplinary investigation,
and a disciplinary investigator abuses his authority under the statute for the purpose of
obtaining an admission for use in a criminal prosecution?

i

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
There are no cases related to the case that is the subject of this petition.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES AND RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
OFFICIAL AND UNOFFICIAL CITATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS AND STATUTE INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
REASONS WHY THE WRIT OF CERTIORARI SHOULD ISSUE . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

A PROFESSIONAL LICENSE HOLDER’S OBJECTIVELY REASONABLE, SUBJECTIVE
BELIEF THAT ASSERTION OF THE FIFTH AMENDMENT PRIVILEGE AGAINST
SELF-INCRIMINATION DURING A DISCIPLINARY INVESTIGATION WILL RESULT
IN REVOCATION OR SUSPENSION OF HIS LICENSE IS SUFFICIENT TO TRIGGER
APPLICATION OF THE EXCLUSIONARY RULE ANNOUNCED IN GARRITY V. NEW
JERSEY, 385 U.S. 493 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

II.

A PROFESSIONAL LICENSE HOLDER’S SUBJECTIVE BELIEF THAT ASSERTION OF
THE FIFTH AMENDMENT PRIVILEGE AGAINST SELF-INCRIMINATION WILL
RESULT IN REVOCATION OR SUSPENSION OF HIS LICENSE IS OBJECTIVELY
REASONABLE WHERE A STATUTE EXPRESSLY AUTHORIZES SUCH A PENALTY
FOR REFUSING TO COOPERATE AND TRUTHFULLY ANSWER QUESTIONS
DURING A DISCIPLINARY INVESTIGATION AND A DISCIPLINARY INVESTIGATOR
ABUSES HIS AUTHORITY UNDER THE STATUTE FOR THE PURPOSE OF
OBTAINING AN ADMISSION FOR USE IN A CRIMINAL PROSECUTION. . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
APPENDIX:
REISSUED OPINION OF THE SUPREME COURT OF OHIO . . . . . . . . . . . . . . . . . . . . . 1a
ORIGINAL OPINION OF THE SUPREME COURT OF OHIO . . . . . . . . . . . . . . . . . . . . 24a
iii

OPINION OF THE OHIO COURT OF APPEALS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46a
OPINION OF THE LIMA, OHIO MUNICIPAL COURT. . . . . . . . . . . . . . . . . . . . . . . . . 87a
RECONSIDERATION ENTRY OF THE SUPREME COURT OF OHIO. . . . . . . . . . . . . . 99a

iv

TABLE OF AUTHORITIES
Cases:
Chavez v. Martinez, 538 U.S. 760 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Garrity v. New Jersey, 385 U.S. 493 (1967). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 12-13
Michigan v. Tucker, 417 U.S. 433 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Minnesota v. Murphy, 465 U.S. 420 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9-10
Miranda v. Arizona, 384 U.S. 436 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Ohio Adult Parole Auth. v. Woodard, 523 U.S. 272 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Oregon v. Elstad, 470 U.S. 298 (1985). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Schneckloth v. Bustamonte, 412 U.S. 218 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 12
Spevack v. Klein, 385 U.S. 511 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
State v. Spiegel, 710 So.2d 13 (Fla. App. 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15-18
United States v. Friedrick, 842 F. 2d 382 (D.C. Cir. 1982) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Goodpaster, 65 F. Supp. 3d 1016 (D. Ore. 2014) . . . . . . . . . . . . . . . . 10-11
United States v. Indorato, 628 F. 2d 711 (1st Cir. 1980) . . . . . . . . . . . . . . . . . . . . . . . . 12-13
Constitutional Provisions:
United States Constitution, Fifth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
United States Constitution, Fourteenth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statutes:
Ohio Revised Code §4731.22 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 13

v

No.

IN THE SUPREME COURT OF THE UNITED STATES

JAMES A. GIDEON,
PETITIONER,
VS.
STATE OF OHIO,
RESPONDENT.

PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF OHIO

Petitioner James A. Gideon (“Petitioner” or “Gideon”) respectfully prays that a writ
of certiorari will issue to review the judgment of the Supreme Court of Ohio entered in Case
No. 2019-1104 on December 15, 2020.

OFFICIAL AND UNOFFICIAL CITATIONS
The December 15, 2020 original opinion and the December 31,2020 reissued opinion
of the Supreme Court of Ohio are officially reported at 2020-Ohio-5635 and 2020-Ohio-6961
respectively. The December 15, 2020 judgment entry and the December 31, 2020

1

reconsideration entry of the Supreme Court of Ohio are officially reported at 2020-Ohio6680 and 2020-Ohio-6985 respectively.
The June 24, 2019 opinion of the Ohio Court of Appeals, Third Appellate District, is
officially reported at 2019-Ohio-2482 and unofficially reported at 130 N.E.3d 357.

JURISDICTION
Petitioner seeks review of the judgment of the Supreme Court of Ohio entered on
December 15, 2020. That court granted a timely motion for reconsideration and filed a
reissued opinion on December 31, 2020.
Petitioner invokes this Court’s jurisdiction pursuant to 28 U.S.C. §1254(1), which
permits a party to petition the Supreme Court of the United States to review any civil or
criminal case before or after rendition of judgment or decree. He relies on this Court’s
General Order dated March 19, 2020 which enlarges the time for filing a petition for a writ
of certiorari to 150 days from the date of the judgment or any order respecting rehearing
of the lower court, whichever is later.

CONSTITUTIONAL PROVISIONS AND STATUTE INVOLVED
United States Constitution, Fifth Amendment:
No person . . .shall be compelled in any criminal case to be a witness against
himself[.]

2

United States Constitution, Fourteenth Amendment, Section 1:
. . . . No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
Ohio Revised Code §4731.22:
....
(B) The [state medical] board, by an affirmative vote of not fewer than six
members, shall, to the extent permitted by law, limit, revoke, or suspend a
license or certificate to practice [medicine]. . . , or reprimand or place on
probation the holder of a license or certificate for one or more of the following
reasons:
....
(34) Failure to cooperate in an investigation conducted by the board under
division (F) of this section, including . . . failure to answer truthfully a question
presented by the board in an investigative interview . . .

STATEMENT OF THE CASE
Petitioner, a now-retired rheumatologist, operated a medical practice, Northwest
Ohio Rheumatology, in Bluffton, Ohio since 2013. He concentrated on treating patients
suffering from fibromyalgia and auto-immune disease.
The medical profession too often resorts to highly addictive opioid medication to
manage chronic pain syndromes of this type. Petitioner was adamantly opposed to this
practice. He sought to break the self-sustaining cycle of his patients’ pain by utilizing a
multifactorial approach, including stress management, improved sleep, and localized
injections of low doses of depomedrol and a numbing agent.
3

One challenging aspect of this treatment was the high frequency of post-injection
pain in the affected area. Petitioner learned that therapeutic massage administered to the
site with the flat palm of the hand can reduce the pain and assist in distributing the
medication over the area of discomfort. He began incorporating this technique in his
practice in the Spring of 2017.
Petitioner endeavored to explain this to his patients, but admittedly fell short in this
effort for two reasons. First, he ran a very high-volume practice. He typically saw 28 to 34
patients a day. The second reason was a deterioration in his overall health during this time
frame.
The volume and pace of a one-doctor rheumatology practice took their toll on this
then-70-year old man. By early May 2017, Petitioner was feeling extremely fatigued due to
an iron deficiency, elevated glucose level, and onset of diabetes. In hindsight, he realized he
neglected to adequately explain the therapeutic massage technique to some of his patients.
Three such patients were M.M., A.A., and C.W. Each of these women filed offense
reports with the Bluffton Police Department accusing Gideon of touching them
inappropriately. The reports were assigned to Sergeant Tyler Hochstetler for investigation.
Petitioner voluntarily met with Hochstetler at the police station for an interview. He
denied engaging in any inappropriate conduct with his patients.
As required by the oversight rules of his profession, Petitioner self-reported the filing
of the offense reports to the Ohio State Medical Board. He sent a text message regarding
this subject to Medical Board Investigator Chad Yoakam with whom he had dealt in the past.
4

Yoakam met with Sergeant Hochstetler regarding the allegations. The men agreed
to cooperate with each other in a “joint investigation” of Petitioner.
Yoakam informed Hochstetler of his intention to interview Petitioner. He emphasized
that the doctor “was obligated to comply with his investigation.” Yoakam discouraged the
police sergeant from participating in this interview so as not jeopardize the use of
Petitioner’s statements in the criminal prosecution.
Yoakam appeared unannounced at Petitioner’s medical offices during business hours.
He was wearing a hidden recording device. He interrogated Petitioner for over a two hour
period while the doctor struggled to keep up with a very heavy schedule of patients.
Yoakam utilized intimidatory techniques and psychological trickery to elicit
admissions of criminal conduct from Petitioner. For example, at the outset, he told
Petitioner that he could tell from his body language whether he was telling the truth.
After the interrogation, Yoakam returned to the police department and told Sergeant
Hochstetler that Petitioner had admitted touching two of the patients for his own
gratification. Hochstetler filed three criminal complaints in the Lima, Ohio Municipal Court
charging Gideon with sexual imposition against M.M., A.A., and C.W.
Petitioner filed a pretrial motion to suppress his statements to the Medical Board
investigator. The municipal court judge conducted an evidentiary hearing on the motion.
During the suppression hearing, Yoakam admitted his knowledge of the statutory
provisions governing the discipline of medical doctors in Ohio. He testified the statute
requires a licensed physician, such as Petitioner, “to cooperate in our investigation” even
5

when there is a parallel criminal investigation into the allegations forming the basis for the
Medical Board’s inquiry. He described this scenario as “what they call a bootstrap on a
criminal case.”
Yoakam characterized his tight-knit working relationship with the Bluffton Police
investigators as a “joint investigation” of Petitioner. He admitted meeting with police
investigators three times before going to Petitioner’s medical office to conduct the secretly
recorded interview. He admitted deliberately showing up at the office unannounced during
normal business hours in order to catch him off-guard, and thereby deprive him of an
opportunity to review his patient files or to consult with an attorney.
Yoakam acknowledged he did not inform Petitioner of his intention to obtain
incriminating admissions to the alleged criminal conduct, and to immediately turn the results
over to the police for use in the criminal prosecution. He also admitted his desire to help the
police secure a criminal conviction against Petitioner in the “bootstrap” investigation
because this would eliminate the need to prove the patients’ allegations before the Board
by independent testimony.
Sergeant Hochstetler testified and confirmed that he and Yoakam collaborated in an
investigation of Petitioner. He identified a narrative report documenting the fact that
Yoakam told the police department that Petitioner is “obligated” to comply with the
disciplinary investigation, that Petitioner admitted touching two of the patients for his own
“gratification,” and that he (Yoakam) told Petitioner to contact the police department “as
soon as possible to get his statement squared away.”
6

Petitioner took the witness stand in his own behalf during the suppression hearing.
He testified he was suffering from extreme fatigue at the time of Yoakam’s visit due to
health issues. His testimony on this point was corroborated by his office manager who
testified that the staff had expressed concerns about his welfare.
Petitioner testified he had capitulated to Yoakam’s questioning due to his belief that
he risked losing his medical license if he refused to cooperate. He explained, “[m]y
understanding is that I have a legal obligation to comply with questions asked by the medical
board and my understanding was that I have on obligation to comply with Mr. Yoakman’s
visit subject to penalties if I didn’t, potentially even loss of licensure.”
Petitioner described Yoakam as playing “good cop, bad cop” throughout the
interrogation. He said that at times, Yoakam feigned compassion and understanding, and
at other times Yoakam was extremely persistent, aggressive and accusatory in his discourse
with him. Petitioner explained that the combination of Yoakam’s tactics and his own failing
health resulted in his making admissions that were not true.
Petitioner testified that Yoakam’s statements and demeanor conveyed the
unmistakable message that he had no choice in the matter and had to answer his questions
then and there, or risk adverse consequences before the medical board. He explained that
if he had known his statements would be used in a criminal investigation, he would have
exercised his Fifth Amendment privilege and consulted with an attorney. Yoakam’s tactics
left him feeling intimidated, exhausted, and demoralized.

7

Following the hearing, the municipal court judge issued a written decision denying
the motion to suppress. In the decision, she accepted Petitioner’s testimony that he believed
he would penalized if he did not cooperate with the Medical Board investigator. (App. 97a 98a) However, she concluded that his belief was not “objectively reasonable” ostensibly
because “the state has played no role in creating the impression.” (App. 98a)
At trial, the prosecutor played the audio recording of Yoakam’s interrogation of
Gideon for the jury during its case-in-chief. The jury found Petitioner guilty of the sexual
imposition charges relating to M.M., A.A., and C.W. The trial judge sentenced Gideon to
maximum, consecutive jail terms totaling 180 days, and classified him as a Tier I sex
offender.
The Ohio Third District Court of Appeals sustained Gideon’s appellate challenge to
the denial of his motion to suppress statements, reversed his three convictions, and
remanded his case to the municipal court for a new trial. (App. 86a) Upon further appeal by
the State, the Supreme Court of Ohio reversed the appeals court decision, and reinstated
the municipal court’s ruling denying the motion to suppress. (App. 13a)

REASONS WHY THE WRIT OF CERTIORARI SHOULD ISSUE

8

The Fifth Amendment to the United States Constitution guarantees that no person
“shall be compelled in any criminal case to be a witness against himself.” This protection
applies to the states through the Fourteenth Amendment. Ohio Adult Parole Auth. v.
Woodard, 523 U.S. 272, 285–86 (1998).
As general rule, an individual must affirmatively assert his right against
self-incrimination, or he will be deemed to have waived it. Minnesota v. Murphy, 465 U.S.
420, 429 (1984). However, for certain “well-defined situations,” this Court has “created
prophylactic rules designed to safeguard the core constitutional right protected by the
Self-incrimination Clause.” Chavez v. Martinez, 538 U.S. 760, 770 (2003) (plurality opinion).
A prophylactic rule eliminates the need for a trial court to conduct a traditional due
process inquiry into whether the “defendant’s will was overborne in a particular case.”
Schneckloth v. Bustamonte, 412 U.S. 218, 226 (1973). The purpose of a prophylactic rule is
to “provide practical reinforcement for the right against compulsory self-incrimination.”
Michigan v. Tucker, 417 U.S. 433, 444 (1974).
A violation of such a rule creates a “presumption of coercion.” Oregon v. Elstad, 470
U.S. 298, 307 (1985). The more familiar of these rules, of course, is the Miranda doctrine.
If police fail to give a suspect in custody the prescribed warnings of his Fifth and Sixth
Amendment rights required under Miranda v. Arizona, 384 U.S. 436 (1966), any statements
made by him, even “patently voluntary statements,” must be suppressed. Elstad, 470 U.S.
at 306-07.

9

A less familiar prophylactic rule applies in instances when the accused is induced to
surrender his Fifth Amendment privilege due to a threat of economic or other sanctions.
Murphy, 465 U.S. at 434. This is described in the case law as the “classic penalty situation.”
Id. at 435.
In the seminal case of Garrity v. New Jersey, 385 U.S. 493, 497 (1967), this Court
explained that “[t]he option to lose [one’s] means of livelihood or to pay the penalty of
self-incrimination is the antithesis of free choice to speak out or to remain silent.” In the
companion case of Spevack v. Klein, 385 U.S. 511, 516 (1967), the Court stated that a
“threat” of sanctions against one’s professional license and the concomitant “loss of
professional standing, professional reputation, and of livelihood * * * are as powerful an
instrument of compulsion as the use of legal process to force from the lips of the accused
individual the evidence necessary to convict him.” (internal citation and quotations marks
omitted).
Petitioner asks this Court to issue a writ of certiorari to the Supreme Court of Ohio
for the purpose of resolving two important questions. First, the Court is requested to
establish a standard for reviewing a Garrity claim that is based on an implied threat of an
economic sanction for exercising one’s Fifth Amendment privilege. Second, the Court is
requested to set a benchmark of “how certain a threatened penalty must be to give rise to
a penalty situation,” United States v. Goodpaster, 65 F. Supp. 3d 1016, 1028 (D. Ore. 2014),
in the context of a disciplinary investigation of a professional license holder?

10

I.

A PROFESSIONAL LICENSE HOLDER’S OBJECTIVELY REASONABLE,
SUBJECTIVE BELIEF THAT ASSERTION OF THE FIFTH AMENDMENT
PRIVILEGE AGAINST SELF-INCRIMINATION DURING A DISCIPLINARY
INVESTIGATION WILL RESULT IN REVOCATION OR SUSPENSION OF
HIS LICENSE IS SUFFICIENT TO TRIGGER APPLICATION OF THE
EXCLUSIONARY RULE ANNOUNCED IN GARRITY V. NEW JERSEY, 385
U.S. 493 (1967).

While an explicit threat is certainly one situation that will trigger the rule in Garrity,
this Court has indicated that the state may also create a classic penalty situation “by
implication.” Murphy, 465 U.S. at 438. Although the Court has not announced a standard
for resolving Garrity claims involving an implied threat of economic penalty, a majority of
jurisdictions has adopted the two-pronged test announced in United States v. Friedrick, 842
F. 2d 382 (D.C. Cir. 1982).
The Friedrick test requires a court to consider: 1) whether the defendant subjectively
believed he would suffer adverse consequences to his livelihood by refusing to cooperate
with an investigation, and 2) whether his belief was objectively reasonable. Id. 842 F.2d at
395.
The Ohio Court of Appeals applied the Friedrick analysis to Petitioner’s appeal. The
appellate panel accepted the trial judge’s factual finding that Petitioner subjectively
believed that he faced the potential loss of his medical license if he refused to answer the
Medical Board investigator’s questions. (App. 68a)
But it rejected the trial judge’s legal conclusion that Gideon’s subjective belief was
not objectively reasonable. (App. 68a - 69a) The panel reasoned that the trial judge had
incorrectly assumed that objective reasonableness should be assessed under the totality of
11

the circumstances standard for determining voluntariness of a confession under the Due
Process Clause. See Schneckloth, 412 U.S. at 226 (the Due Process inquiry includes such
factors as the age and education of the accused, the repeated and prolonged nature of the
questioning, and the use of physical punishment such as deprivation of food or sleep).
Instead, said the appellate panel, the trial judge should have focused her analysis on
“the circumstances surrounding the subject’s ‘duty to cooperate” and the threat of
‘administrative discipline.’” (App. 68a, quoting Goodpaster, 65 F. Supp. 3d at 1032)
In reversing the decision of the court of appeals, the Supreme Court of Ohio stated
it would apply the “objectively reasonable” “subjective belief” test. (App. 7a) But this was
mere lip service.
The court ruled that the trial judge correctly denied Petitioner’s motion to suppress
due to his failure to prove that the medical board investigator had made an explicit threat
to impose a sanction against his medical license if he did not cooperate with the disciplinary
investigation:
Gideon did not establish through evidence that coercive action by the
medical-board investigator had occurred. The trial court found no evidence
that the medical-board investigator informed Gideon that “he must waive his
rights against self-incrimination or subject himself to discharge or revocation
of his license.” And neither Gideon nor the investigator mentioned during the
interview anything that suggested Gideon could lose his medical license if he
refused to comply with the investigator’s questioning.
(App. 8a)
The Ohio Supreme Court’s de facto belief that a Garrity claim requires proof of an
explicit threat of economic penalty represents a distinctly minority view. Cf. United States
12

v. Indorato, 628 F. 2d 711, 716 (1st Cir. 1980) (rejecting Garrity claim because “[i]n this case,
there was no explicit ‘or else’ choice and no statutorily mandated firing is involved.”)
Acceptance of this case for review will provide this Court with an opportunity to resolve a
split in the courts regarding this important question and establish a uniform standard for
deciding Garrity claims that are based on implied threats of economic penalty.
II.

A PROFESSIONAL LICENSE HOLDER’S SUBJECTIVE BELIEF THAT
ASSERTION OF THE FIFTH AMENDMENT PRIVILEGE AGAINST SELFINCRIMINATION WILL RESULT IN REVOCATION OR SUSPENSION OF
HIS LICENSE IS OBJECTIVELY REASONABLE WHERE A STATUTE
EXPRESSLY AUTHORIZES SUCH A PENALTY FOR REFUSING TO
COOPERATE AND TRUTHFULLY ANSWER QUESTIONS DURING A
DISCIPLINARY INVESTIGATION AND A DISCIPLINARY INVESTIGATOR
ABUSES HIS AUTHORITY UNDER THE STATUTE FOR THE PURPOSE OF
OBTAINING AN ADMISSION FOR USE IN A CRIMINAL PROSECUTION.

The municipal court judge also reasoned that the Garrity rule did not apply because
a refusal on the part of Petitioner to cooperate with a State Medical Board investigator
would “not necessarily lead to a termination of his medical license” under the state statute
(Ohio Revised Code §4731.22) governing licensing of physicians. (App. 97a, emphasis
supplied)
The Ohio Court of Appeals was unpersuaded by this unrealistic and superficial
approach to the issues:
In our view, the trial court did not capture the concept of the statute
and, more importantly, failed to consider the totality of the circumstances
surrounding Gideon’s interview with Investigator Yoakam to determine
whether suppression is warranted under Garrity . Indeed, we cannot turn a
blind eye to the totality of the evidence presented at the suppression hearing
supporting that Gideon’s belief (that he would be penalized if he remained

13

silent) was objectively reasonable. The requirements of R.C. 4731.22 are but
one piece of the puzzle.
(App. 68a-69a)
The appellate court explained that the other “piece of the puzzle” was the
“demonstrable” efforts undertaken by Medical Board Investigator Yoakam “to coerce
Gideon to provide him an incriminating, oral and written statement in reliance on Gideon’s
duty to cooperate.” (App. 77a - 78a) As to this “piece of the puzzle,” said the appellate panel,
“Investigator Yoakam’s actions created an impression that Gideon’s refusal to cooperate
with his investigation would result in the type of penalty prohibited under Garrity.” (App.
84a)
The Supreme Court of Ohio embraced the trial judge’s position that the exclusionary
rule in Garrity does not apply unless the threat of economic penalty - here a revocation or
suspension of a professional license - for a failure to answer questions rises to the level of
an absolute certainty:
Besides the lack of evidence showing that Gideon had an objectively
reasonable basis for believing that he could lose his medical license, the trial
court correctly found that R.C. 4731.22(B), which requires a doctor’s
cooperation in an investigation, does not subject that doctor “to an automatic
suspension or revocation” of a license should the doctor exercise the right to
remain silent. Although that section speaks in mandatory terms about
discipline for certain violations (the board “shall” impose one of the listed
sanctions), discipline is not automatic. It requires the affirmative vote of “not
fewer than six” medical-board members to impose discipline for one of the
reasons listed in R.C. 4731.22(B). And even when the medical board
determines that a doctor has committed a violation, revocation of a medical
license is not a required sanction—it is one of several sanctions available to
the board. See R.C. 4731.22(B). In Gideon’s case, there was no direct threat
of discipline for failure to cooperate; he faced only the possibility of discipline.
14

(App. 8a - 9a)
The Florida appellate court in State v. Spiegel, 710 So.2d 13 (Fla. App. 1998) rejected
the state’s invitation to adopt a similar approach in a criminal appeal implicating an
attorney’s duty to cooperate with a bar disciplinary investigation. The record in that case
revealed that Defendant Spiegel was interviewed by a member of the state grievance
committee regarding a complaint filed by his estranged wife accusing him of abuse and
harassment.
Spiegel was subsequently charged with criminal contempt for violating a domestic
violence protection order based on the same conduct underlying the disciplinary complaint.
The prosecution proposed to use Spiegel’s statements to the grievance committee member
to prove the contempt charge in the criminal proceedings.
During the suppression hearing, Spiegel testified he “feared he would lose his license
to practice law if he did not agree to the grievance interview and believed he was required
to answer questions under Bar rules.” Id. 710 So.2d at 15. Spiegel insisted “he would not
have agreed to the interview had he known responses to questions were not required.” Id.
at 15-16. The grievance committee member testified and confirmed that she never advised
Spiegel had a right not to meet with her or a right not to respond to particular questions. Id.
at 16.
The trial court issued a finding that both Spiegel and the committee member
“believed Bar rules required Spiegel to respond to the committee member’s questions

15

verbally and in writing.” Id. at 16. It also found that Spiegel “submitted to the interrogation
because he believed that failure to respond or cooperate would result in disbarment.” Id.
The trial court suppressed the statements. It certified its ruling to the court of appeals
on the following issue: “whether statements made by an attorney at a Florida Bar interview,
when the attorney believes he is compelled to answer, may be suppressed in a subsequent
criminal prosecution as a violation of the privilege against self-incrimination?” Id. (emphasis
supplied).
The Florida Court of Appeals answered the certified question in the affirmative and
upheld the trial court’s ruling. The appellate panel emphasized that the defendant’s
disclosures “were made during a grievance interview prior to criminal charges being filed”
and that he acquiesced to the interview “under the presumption that answers were
required.” Id. at 18. It concluded that “to admit such statements under these circumstances
would not only adversely affect the truth-seeking function of the grievance committee to
protect the public, such a ruling would negatively infringe upon the fundamental privilege
of a witness to refrain from answering self-incriminating questions.” Id.
Petitioner submits that the Florida court’s approach appropriately takes into account
the realities of the disciplinary process whereas the Ohio Supreme Court’s truncated
treatment does not. As noted, the trial judge decided that Petitioner was being truthful
when he testified to his understanding that he was obligated to answer the Medical Board
investigator’s questions or face proceedings against his license to practice medicine. The
express language of the Ohio statute supports his understanding of the potential penalties,
16

including revocation or suspension, for not cooperating with the investigation. The medical
board investigator’s abusive efforts to bolster the police department’s criminal case against
him reinforced this understanding.
Under the view taken by the Ohio Supreme Court, a holder of a professional license
can never satisfy the objective reasonableness prong unless the penalty for non-cooperation
is absolute and automatic under the enabling statute. This is not a reasonable application
of this Court’s Fifth Amendment jurisprudence. Acceptance of this case for review will
provide the Court with an opportunity to clarify the law on this important question.

CONCLUSION
The transcript of the suppression hearing in the municipal court is replete with
testimony reciting the extent to which the medical board investigator and the local police
department were “joined at the hip” in their efforts to develop a criminal case against
Petitioner. The state court of appeals commented that “the evidence in the record reveals
that Investigator Yoakam exceeded statutorily permissible collaboration by taking
demonstrable steps to coerce Gideon to provide him an incriminating, oral and written
statement in reliance on Gideon's duty to cooperate. In other words, Investigator Yoakam
was posing as a ‘straw man’ to effectuate law enforcement’s criminal investigation.” (App.
77a - 78a)

17

The Florida court in Spiegel explained why a strict demarcation of the boundary
between a criminal prosecution and a professional license proceeding is not only a
constitutional imperative but also one of sound public policy:
[W]e are concerned that a ruling allowing such statements to be
admissible [in a criminal trial] would interfere with the Bar’s truth-seeking and
disciplinary functions. Bar Grievance proceedings play an important role in
protecting the public from improper professional conduct by attorneys. In
order to carry out this important function, grievance committee members
must be able to conduct meaningful investigations to ascertain all facts
relating to the grievance. Requiring an attorney to plead the Fifth as soon as
possible in order to preserve the privilege would directly conflict with the Bar
Grievance committee’s truth-seeking function.
....
[T]o admit such statements under these circumstances would not only
adversely affect the truth-seeking function of the grievance committee to
protect the public, such a ruling would negatively infringe upon the
fundamental privilege of a witness to refrain from answering self-incriminating
questions.
Id. 710 So.2d at 17-18.
These sentiments have equal relevance to investigations involving physicians. The
Ohio Supreme Court’s decision sets dangerous precedent. If allowed to stand, the ruling will
undermine the function of professional licensing authorities to protect the public while also
violating the Fifth Amendment rights of professional licensees.
For all the foregoing reasons, Petitioner asks the Court issue a writ of certiorari to the
Supreme Court of Ohio to address these important issues.

18

Respectfully submitted,

Dated: May 29, 2020

s/Dennis C. Belli
DENNIS C. BELLI
ATTORNEY FOR PETITIONER

19

